HHS/OIG, Audit - "Review of Medicaid Targeted Case Management Services
Provided by the Maine Bureau of Child and Family Services During Federal Fiscal
Years 2002 and 2003," (A-01-05-00004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicaid Targeted Case Management Services Provided by the Maine Bureau of
Child and Family Services During Federal Fiscal Years 2002 and 2003," (A-01-05-00004)
December 7, 2007
Complete
Text of Report is available in PDF format (3.03 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The costs that the State agency claimed for Medicaid
targeted case management (TCM) services provided by the Maine Bureau of
Child and Family Services during fiscal years 2002 and 2003 were not
always in accordance with Federal and State requirements.  As a result, the
State agency overstated TCM costs by a total of $44,213,815 ($29,759,384 Federal
share).  We were unable to express an opinion on the remaining $12,387,285
($8,327,896 Federal share) claimed.
We recommended that the State agency (1) refund to the Federal Government
$29,759,384 in unallowable costs claimed for TCM services; (2) work with the
Centers for Medicare and Medicaid Services to
determine the allowability of the $8,327,896 Federal share on which we were
unable to express an opinion; (3) identify and refund to the Federal Government
any TCM costs that represent excessive reimbursement, direct social services,
and nonreimbursable administrative costs reimbursed after the audit period; and
(4) establish procedures to ensure that claims for Medicaid TCM reimbursement
include only allowable and adequately documented TCM costs.  The State agency
disagreed with the findings and recommendations.